No. 19-351
In the

Supreme Court of the United States
FEDERAL REPUBLIC OF GERMANY, et al.,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
Court of A ppeals for the D.C. Circuit

BRIEF OF AMICI CURIAE HOLOCAUST
AND NUREMBERG HISTORIANS IN
SUPPORT OF NEITHER PARTY
Owen Pell
Counsel of Record
Sequoia K aul
Paula K ates
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 819-8200
opell@whitecase.com
Counsel for Amici Curiae
298297

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE NAZI REGIME’S EFFORTS TO
INFLICT CONDITIONS INTENDED TO
BRING ABOUT THE DESTRUCTION
OF GERMAN JEWRY WERE WELL
UNDERWAY BETWEEN 1933 AND 1935  . . . 7
A. The Nazi Party was intent on removing
Jews from German society long before
taking power . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. Upon taking to power in 1933, the
Nazis immediately began to sow fear
and terror in the German Jewish
community . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
C. From 1933 to 1935, the Nazis increasingly
curtailed Jews’ livelihoods and legal
rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
Table of Contents
Page
D. Jewish businesses and assets were
targeted for forced sale at less than full
value . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
E. Market manipulation and forced sales
were common in the German art market
between 1933 and 1935  . . . . . . . . . . . . . . . . 21
II. H I S T O R I C A L E V I D E N C E
CONNECTS ARTICLE 2(C) OF THE
U. N. GENO C I DE C ON V EN T ION
T O GER M A N Y ’ S PR O GR A M OF
E C ONO M IC DE S T RU C T ION OF
GERMAN JEWS . . . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

iii
TABLE OF CITED AUTHORITIES
Page
Cases
United States v. Brandt, et al.
(Int’l Military Trib. at Nuremberg 1946) . . . . . . . . . 26
United States, et al. v. Goering, et al.,
6 F.R.D. 69 (Int’l Military Trib. at Nuremberg
1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 26

Statutes and Other Authorities
Jüdische Rundschau, nr. 49 (June 20, 1933)  . . . . . . . . . 15
Avraham Barkai, From Boycott to Annihilation: The
Economic Struggle of German Jews 1933-1943
(1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Christine Fischer-Defoy & Kaspar Nürnberg, Gute
Geschäfte: Kunsthandel in Berlin 1933-1945
(2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 23, 24
Christoph Kreutzmüller, Final Sale in Berlin: The
Destruction of Jewish Commercial Activity
1930-1945 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . .  15, 16
Convention on the Prevention and Punishment
of the Crime of Genocide, Dec. 9, 1948,
102 Stat. 3045 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iv
Cited Authorities
Page
Dan Michman, Economic Entjudung in Nazi
Europe, 1933-1945: Its Place in the Overall
Nazi Antisemitic Enterprise, in Geschichte
erforschen – Geschichte vermitteln (Martina
Sochin d’Elia & Fabian Frommelt eds. 2017) . . . . . . 9
David Cesarani, Final Solution: The Fate
of the Jews 1933-49 118 (2015)  . . . . . . . . . . . . . . . . . . 10
Debórah Dwork & Robert Jan van Pelt, Flight from
the Reich: Refugee Jews, 1933-1946 (2009) . . . . . . . . 13
Die Ziele der Nationalsozialisten aus dem
Programm der NSDAP (Feb. 24, 1920) . . . . . . . . . . . 8
Dieter Ziegler, Die Dresdner Bank und die
deutschen Juden (2006) . . . . . . . . . . . . . . . . . . . . . . . 25
Draft Convention on the Crime of Genocide,
E/447 (1947) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Hans-Georg Meyer & Kerstin Roth, Zentrale
st a a tli ch e Einr i chtun g d es Lan d es
He s s e n : D a s K o n z e n t r a t i o n s l a g e r
Osthofen in Instrumentarium der Macht
(Wolfgang Benz, Barbara Distel eds. 2003)  . . . . . . 11
Inka Berz & Michael Dorrmann, Raub und
Restitution: Kulturgut aus jüdischem Besitz
von 1933 bis Heute (2008) . . . . . . . . . . . . . . . . . . . 23, 24

v
Cited Authorities
Page
Johannes Bähr, Die Dresdner Bank in der
Wirtschaft des Dritten Reichs (2006)  . . . . . . . . . . . 25
Jonathan Petropoulos, The Faustian Bargain:
The Art World in Nazy Germany (2000) . . . . . . . . . 19
Kim Wunschmann, Before Auschwitz: Jewish
Prisoners in the Prewar Concentration Camps
(2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Marion Kaplan, Between Dignity and Despair:
Jewish Life in Nazi Germany (1996) . . . . . . . . . . . . 12
Martin Münzel, Die jüdischen Mitglieder
der deutschen Wirtschaftselite 1927-1955:
Verdr än gun g — Emi gr atio n — Rü ckkehr
(2006)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Nikolaus Wachsmann, KL: A History of the Nazi
Concentration Camps (2015) . . . . . . . . . . . . . . . . . 3, 10
Peter Hayes, From Cooperation to Complicity:
Degussa in the Third Reich (2004) . . . . . . . . . . . . . . 20
Peter Hayes, Why? Explaining the Holocaust
(2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 14, 19
Peter Longerich, Holocaust: The Nazi Persecution
and Murder of the Jews (2010)  . . . . . . . . . . . . . . . . . 14

vi
Cited Authorities
Page
Raphael Lemkin, Axis Rule in Occupied Europe
(1943) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Raphael Lemkin, Genocide – A Modern Crime
(1945) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Raul Hilberg, The Destruction of the European Jews
(2003)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 21
Rep. of the Sixth Committee, Genocide: Draft
Convention and Report of the Economic and
Social Council, A/760 (1948) . . . . . . . . . . . . . . . . . . . . 27
Richard Z. Chesnoff, Pack of Thieves: How Hitler
and Europe Plundered the Jews and Committed
the Greatest Theft in History (2001)  . . . . . . . . . . . . 19
Ru d ol f L e n z , K a r s t a d t : Ei n d e u t s c h e r
Warenhauskonzern 1920-1950 (1955) . . . . . . . . . . . . 15
Saul Friedländer, Nazi Germany and the Jews:
Volume I: The Years of Persecution, 1933-1939
(1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
U.N. ESCOR, 8th Sess., 69th mtg. (Oct. 7, 1948) . . . . . 27
U.N. ESCOR, 8th Sess., 72nd mtg. (Oct. 12, 1948)  . . . 27
U.N. ESCOR, 8th Sess., 81st mtg. (Oct. 22, 1948) . . . . 28
U.N. ESCOR, 8th Sess., 82nd mtg. (Oct. 23, 1948)  . . . 28

vii
Cited Authorities
Page
William Schabas, From the Holocaust to the
Genocide Convention (2008) . . . . . . . . . . . . . . . . . . . 27
Wolf Gruner, Defiance and Protest: A Comparative
Micro-Historical Re-Evaluation of Individual
Jewish Responses towards Nazi Persecution, in
Micro-Histories of the Holocaust (Claire Zalc
& Tal Bruttmann eds. 2017) . . . . . . . . . . . . . . . . . . . .11

1
INTEREST OF AMICI CURIAE
Amici curiae are academic specialists on the history
of the Holocaust period, which ran from January 30,
1933 through at least May 9, 1945, and the Nuremberg
trials following World War II, which considered extensive
evidence relating to the Holocaust—including the period
from January 1933 through June 1935 that is relevant to
this case. Amici have an important interest in ensuring
that the historical issues presented are understood
fully and comprehensively, including so as to prevent
misunderstandings and distortions of Holocaust history.1
Amici include:
Peter Hayes (Ph.D., Yale) is Theodore Zev Weiss
Holocaust Educational Foundation Professor Emeritus,
Northwestern University. Author or editor of thirteen
books, including monographs on two large German
chemical companies, IG Farben and Degussa, during the
Nazi era: The Oxford Handbook of Holocaust Studies, and
Why? Explaining the Holocaust. Chair of the Academic
Committee of the United States Holocaust Memorial
Museum, 2014-19.
Omer Bartov (Ph.D., Oxford) is John P. Birkelund
Distinguished Professor of European History, Brown
University. Author or editor of thirteen books, primarily
on the histories of Nazi Germany and the Holocaust,
1. No counsel for a party authored this brief in whole or
in part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of
this brief. No one other than amici curiae or its members made
a monetary contribution to the preparation or submission of this
brief. Counsel for the parties have consented to the filing of amicus
briefs through letters filed with the Clerk of the Court.

2
including studies of the behavior of the German army,
issues of memory and representation, and events in Polish
Galicia.
Debórah Dwork (Ph.D., University College, London)
is Founding Director of the Center for the Study of the
Holocaust, Genocide, and Crimes Against Humanity,
Graduate Center-CUNY, and formerly Rose Professor of
History and Founding Director of the Strassler Center for
Holocaust Studies at Clark University. Author or editor of
eight books on the Holocaust, including Auschwitz, 1270
to the Present; Holocaust: A History, and Flight from the
Reich: Refugee Jews, 1933-1946.
Wolf Gruner (Ph.D., TU Berlin) is Shapell-Guerin
Chair in Jewish Studies and Founding Director of the
Center for Advanced Genocide Research, University of
Southern California. Author or editor of fifteen books on
aspects of the Holocaust, notably local-level persecution
of Jews in Germany after 1933, forced and slave labor,
and resistance on the part of both Jews and non-Jews.
Member of the Academic Committee of the United States
Holocaust Memorial Museum.
Claudia Koonz (Ph.D., Rutgers) is Peabody Family
Professor of History Emerita at Duke University. Author
or editor of numerous works on the history of women and
Nazi ideology, notably Mothers in the Fatherland and The
Nazi Conscience.
Dan Michman (Ph.D., Hebrew University, Jerusalem)
is Emeritus Professor of Jewish History and former chair
of the Finkler Institute of Holocaust Research, BarIlan University, Israel, and Head of the International
Institute for Holocaust Research and John Najmann

3
Chair of Holocaust Studies, Yad Vashem. Author or
editor of twenty-five books and numerous articles on
the Holocaust, especially concerning historiography and
conceptualization, the ghettos, and Western Europe,
including the role of economic persecution.
Jonathan Petropoulos (Ph.D., Harvard) is John V.
Croul Professor of European History at ClaremontMcKenna College. Author or editor of eight books,
including four studies of the art trade and world in Nazi
Germany.
Nikolaus Wachsmann (Ph.D., London) is Professor of
Modern European History at Birkbeck College, University
of London. Author or editor of numerous works on modern
German history, among them five books on Nazi prisons
and concentration camps, including the multiple prizewinning, KL: A History of Nazi Concentration Camps.
Amici respectfully submit this brief to provide a
precise and historically accurate context for assessing
how the Holocaust—the comprehensive persecution
and genocide of the Jews—unfolded between 19331935, especially with respect to Jews in business, and
particularly in the art market in Germany. This brief is
intended to correct misimpressions in other briefs filed
in this case relating to how the Holocaust developed in
Germany, specifically in the period between January
1933 and June 1935 (when the Welfenschatz was sold).
The history of the persecution of Jews in Germany prior
to June 1935 amply demonstrates why the period of the
comprehensive anti-Jewish campaign was defined at the
Nuremberg trials as beginning with Hitler’s appointment
as Chancellor on January 30, 1933. Amici take no side
on the statutory issues of foreign sovereign immunity

4
presented, and have no stake in the present litigation, and
therefore submit this brief in support of neither party.
Their motive is entirely that of historical accuracy with
respect to the history of the Holocaust.
SUMMARY OF ARGUMENT
The history of the persecution of Jews in Germany
prior to June 1935 amply demonstrates why the period
of the comprehensive anti-Jewish campaign was defined
at Nuremberg as beginning with Hitler’s appointment as
Chancellor on January 30, 1933. Upon Hitler’s accession
on January 30, 1933 through the time of the Welfenschatz
sale in June 1935, the Nazi movement and state pursued
policies that made the continued existence of Jews in
Germany increasingly impossible. As a matter of historical
record, German Jews, including the Consortium members,
ceased to possess the full and equal rights of German
nationals—and were viewed and treated increasingly as
aliens and strangers in their own land.
Well before the infamous Nuremberg Laws of
September 1935, German Jews were systematically
stripped of legal and economic rights normally associated
with citizenship. Even before they were rendered
officially stateless, Jews faced growing statelessness via
a creeping curtailment of legal and property rights, and
from early-1933 to mid-1935, the Nazi regime steadily
and comprehensively infringed upon a dizzying array of
German Jews’ livelihoods and everyday activities.
In addition, Jewish businesses and assets were
targeted for forced sale at less than full value. Property
theft and appropriation were not tangential or opportunistic
in the Nazi program. Rather, as proven at Nuremberg

5
and overwhelmingly confirmed by the historical record,
they were central to the ultimate purpose of making it
impossible for German Jews to continue living in Germany.
Market manipulation and forced sales also were common
in the German art market between 1933 and 1935. In
the words of Raul Hilberg, such transfers occurred “in
pursuance of ‘voluntary’ agreements between Jewish
sellers and German buyers . . . . The word ‘voluntary’
belongs in quotation marks because no sale of Jewish
property under the Nazi regime was voluntary in the sense
of a freely negotiated contract in a free society.” Raul
Hilberg, The Destruction of the European Jews 92 (2003).
Thus, during the period between January 1933 and
June 1935, the Nazi regime was taking concerted steps
to destroy the social and economic rights and freedoms
of German Jews and to make their continued presence
in Germany increasingly unbearable. This is true if
viewed generally, in terms of any Jewish person’s ability
to exercise social and economic rights, and is also true
if viewed specifically in terms of a Jewish art dealer’s
ability to operate freely in an open and fair market free
of coercive pressures. This period is inextricably related
to the genocide we call the Holocaust. To depict prevailing
conditions at the time of the Welfenschatz sale as allowing
Jewish sellers to stand on equal footing with non-Jewish
buyers in negotiations is an affront to the historical record.
Finally, Amici note that various drafters of the U.N.
Genocide Convention, taking account of the findings at
Nuremberg, viewed Germany’s program of economic
destruction as to German Jews as falling within the
understanding of genocide expressed in Article 2(c) of the
Genocide Convention.

6
ARGUMENT
From the moment of Adolf Hitler’s appointment,
Nazi activists and officials at the national, regional, and
local levels were intent on reducing the livelihoods and
indeed the number of Jews in Germany as a first step
toward implementing the Nazi Party’s declared desire to
“remove” Jews’ “influence” from German life. Efforts to
this effect increased inexorably albeit unevenly for fear
of impairing Germany’s recovery from the Depression
and international standing. These efforts included
intimidation through widely publicized acts of violence
against individuals, as well as exclusion of Jews from whole
categories of employment and economic activity. Such
forms of discrimination and harm were extensive prior
to the time when the Nazi State stripped Jews of most
citizenship rights shortly after the sale of the Welfenschatz
in 1935, let alone by the time the regime’s hateful goals
metamorphosed in 1941-42 into the “final or total solution
to the Jewish question,” namely the mass murder of all
Jews within reach. As a result, a presumption of duress,
either implicit or explicit, attaches to any property
transfer entered into by a Jew in Germany after Hitler’s
appointment as Chancellor on January 30, 1933.
When historians teach courses or write books on the
mass murder of the European Jews by Nazi Germany, the
events usually referred to as the Holocaust, they often begin
by tracing the origins and fluctuations of long-standing
hatred toward Jews in Europe. But the true onset of the
narrative is 1933, the moment when a political party deeply
committed to this hatred acquired power, and the account
that unfolds is one in which Nazi intentions to “remove”
Jews’ “influence” escalated into a comprehensive program
to “annihilate” their very existence anywhere within reach

7
of the Third Reich. Although the transformation of Nazi
anti-Jewish policy was gradual, halting, and marked by
milestones along the way—e.g., the Boycott of 1933, the
Nuremberg Laws, the “Kristallnacht” pogrom, and the
Wannsee Conference—the general direction toward ever
more complete and violent exclusion of the Jews was set
from the beginning of Nazi rule and included an emphasis
on economic Entjudung (“dejewification”). What Nazi
leaders considered necessary and achievable in defending
the German nation from a relatively small population of
German Jews in 1933-35 (as Germany sought to recover
from the Depression and to rearm) was less extreme
than what seemed required and attainable in dealing
with millions of Jews in territories occupied by 194142 (as Germany fought a world war on multiple fronts).
There is no doubt, however, that the initial measures were
indispensable steps toward genocide and inseparable
from it.
I.

THE NAZI REGIME’S EFFORTS TO INFLICT
CONDITIONS INTENDED TO BRING ABOUT
THE DESTRUCTION OF GERMAN JEWRY WERE
WELL UNDERWAY BETWEEN 1933 AND 1935
A.

The Nazi Party was intent on removing Jews
from German society long before taking power.

As the Nuremberg Tribunal found, the intents and
desires of the Nazi Party were clear well before Hitler’s
rise to power in 1933. United States, et al. v. Goering,
et al., 6 F.R.D. 69, 78 (Int’l Military Trib. at Nuremberg
1946). In February 1920, Hitler announced the platform
of the Nazi Party. Point 4 of the platform stated “[o]nly a
racial comrade can be a citizen. Only a person of German
blood, regardless of religion, can be a racial comrade.

8
Thus, no Jew can be a racial comrade.” Die Ziele der
Nationalsozialisten aus dem Programm der NSDAP
(Feb. 24, 1920), www. documentarchiv.de/wr/1920/nsdapprogramm.html (translation by Amici).
Other points in the Nazi Party program declared that
Jews should be treated as foreigners, that they should
not be permitted to hold public office, that they should be
expelled from the Reich if it were impossible to nourish
the entire population of the State, that they should be
denied any further immigration into Germany, and
that they should be prohibited from publishing German
newspapers. Id. The Nazi Party preached these doctrines
throughout its history. Der Stürmer, its scurrilous tabloid,
Der Völkischer Beobachter, its daily propaganda organ,
and other publications disseminated hatred of Jews, and
the speeches and public declarations of the Nazi leaders
held Jews up to public ridicule and contempt. See Goering,
6 F.R.D. at 162. Thus, the Nuremberg Tribunal dated the
“Common Plan or Conspiracy” of the Nazis as lasting 26
years, from the formation of the Nazi Party in 1919 to the
end of the war in 1945. Id. at 111. The persecution of the
Jews was included within the indictment as part of that
conspiracy. Id.
Petitioners appear to claim that the Welfenschatz sale
cannot relate to a “genocide” because (i) the Consortium
purchased the Welfenschatz as the Depression was
setting in and any price ultimately negotiated principally
reflected economic conditions as the crisis was winding
down; (ii) the Consortium—as other German nationals—
was free to bargain over price; (iii) genocide has only
to do with violence like murder, torture, and physically

9
cruel and inhumane treatment of people; (iv) genocide is
not “a property offense”; (v) the property at issue was
not essential for life—like food or medicine; (vi) none
of the Consortium members died due to the sale of the
Welfenschatz. See Brief for Petitioners 36-37. 2 Amici are
not opining whether, as a matter of international law,
genocide is limited to crimes of violence or may never
include matters of “non-essential” property, nor do Amici
opine on how genocide may relate to expropriation.
Rather, Amici show below that, as of Hitler’s accession
on January 30, 1933 through the time of the Welfenschatz
sale, the Nazi movement and state pursued policies
that made the continued existence of Jews in Germany
increasingly impossible. As a matter of historical record,
German Jews, including the Consortium members, ceased
to possess the full and equal rights of German nationals—
they were viewed and treated increasingly as aliens and
strangers in their own land. The purpose of the Nazi
regime in treating German Jews this way was to make
continued life for them in Germany intolerable. See Dan
Michman, Economic Entjudung in Nazi Europe, 19331945: Its Place in the Overall Nazi Antisemitic Enterprise,
in Geschichte erforschen – Geschichte vermitteln 207-34
(Martina Sochin d’Elia & Fabian Frommelt eds. 2017).
Amici also note that various drafters of the United
Nations Convention on the Prevention and Punishment
2. To the same effect, see Pet. for Cert. 7, 17. The brief
for the United States at the cert stage appears to refer to the
events unfolding in Germany during 1933-35 only as “alleged
genocides.” Br. for the United States as Amicus Curiae 14; see
also id. (asserting that the alleged taking here does not fall
under international law because the Consortium members still
maintained German citizenship in 1935).

10
of the Crime of Genocide, Dec. 9, 1948, 102 Stat. 3045
(“Genocide Convention”), taking account of the findings
at Nuremberg, viewed Germany’s program of economic
destruction as to German Jews as falling within the
understanding of genocide expressed in Article 2(c) of the
Genocide Convention, as discussed in Section II, infra.
B. Upon taking to power in 1933, the Nazis
immediately began to sow fear and terror in
the German Jewish community.
Within weeks of Hitler’s accession, Jews were being
terrorized around Germany, and word of that was broadly
circulating in society. The terror, including random
arrests, beatings, and constant harassment, constituted a
veritable campaign to “encourage” and ultimately compel
German Jews to flee the country. See, e.g., David Cesarani,
Final Solution: The Fate of the Jews 1933-49 118 (2015)
(“[B]lackmail and threatening letters proliferated.”).
This terror against Jews included unlawful detention
in concentration camps set up all over Germany in 1933.
Jews were significantly more likely than the average
German to be forced into these camps and faced brutal
antisemitic abuse. At Dachau, which would become a model
for later SS camps, at least eight of the twelve prisoners
murdered in the first weeks were of Jewish descent.
See Nikolaus Wachsmann, KL: A History of the Nazi
Concentration Camps 43-44, 52-56 (2015).
Two of the three dealers of the Welfenschatz were
located in Frankfurt. In March 1933, the Osthofen camp
was opened nearby in a confiscated former paper mill.
Between 1933-34, it housed at least 119 Jewish prisoners,

11
among them the mill’s chief manager. Within the camp,
Jewish prisoners were often singled out for abuse; some
were forced to clean latrines with their bare hands or
food tins and subjected to physical violence. See Kim
Wunschmann, Before Auschwitz: Jewish Prisoners in
the Prewar Concentration Camps 46-49, 69-76, 81-82
(2015); Hans-Georg Meyer & Kerstin Roth, Zentrale
staatliche Einr ichtung des Landes Hessen: Das
Konzentrationslager Osthofen in Instrumentarium der
Macht 190, 206-208 (Wolfgang Benz, Barbara Distel eds.
2003).
This early Nazi campaign of terror was open and
notorious. For example, processions of prominent
prisoners were paraded through streets lined with
spectators to nearby and newly-created concentration
camps. Wachsmann, KL at 64-65. Many of the early
camps—often located in the middle of German towns—
were unconcealed spectacles of degradation and abuse.
Screams and shots could be heard in the night, and guards
boasted of torture and even murder. Id. at 65. As a result,
news spread across Germany about crimes in local camps,
and articles appeared in foreign newspapers describing
the “shocking” appearance of prisoners. Id. at 65-71. If
Jews dared to protest against the prevailing viciousness,
they were prosecuted and sentenced to months in jail by
Special Courts set up by the Nazi authorities, including
in Frankfurt. See Wolf Gruner, Defiance and Protest:
A Comparative Micro-Historical Re-Evaluation of
Individual Jewish Responses towards Nazi Persecution,
in Micro-Histories of the Holocaust 213 (Claire Zalc & Tal
Bruttmann eds. 2017).

12
At the same time, Jews also began to experience “social
death” as social, political, and business organizations in
Germany began to exclude Jews or “Aryanize.”
Many organizations ‘Nazified,’ even before
the government officially required them to do
so. Some examples include the German Chess
League, the Association of the Blind, the
Teacher’s Association, the German Association
of Pharmacists, and the German Automobile
Club. Moreover, where organizations did not
formally ban Jews, they were often made
unwelcome by individuals; they simply made
clear that Jews were no longer considered a
member of the association, and the Jewish
person withdrew. As Hannah Arendt wrote,
“Our friends Nazified (gleichschalteten)
themselves! The problem . . . after all, was not
what our enemies did, but what our friends did.”
Marion Kaplan, Between Dignity and Despair: Jewish
Life in Nazi Germany 43 (1996).
The purpose of this terror campaign was to make
Jews aware of their utter vulnerability. “Citizenship” was
a pointless defense for Jews being made to understand
that they no longer actually had the rights or freedoms
of ordinary Germans—a precursor to being completely
severed from German life.
The effectiveness of this campaign is well-documented.
By June 1935, when the sales contract for the Welfenschatz
was signed, roughly 83,000 German Jews had fled the
country—about 17% of their total number when Hitler

13
came to power. Those included Jews from Frankfurt,
among them members of the Consortium that owned the
Welfenschatz, as well as the family of Otto Frank (Anne’s
father). See Debórah Dwork & Robert Jan van Pelt, Flight
from the Reich: Refugee Jews, 1933-1946 17-18, 92 (2009).
C.

From 1933 to 1935, the Nazis increasingly
curtailed Jews’ livelihoods and legal rights.

In addition to widespread acts of terror, Jews also
began to experience their formal removal from positions
of political and economic authority. Nazi authorities at
national, regional, and local levels played two roles in this
process: Government agencies instituted discriminatory
policies that deprived German Jews of economic and
business rights and many of the freedoms accorded
to other Germans. Those discriminatory government
actions, in turn, created an atmosphere of impunity,
encouraging Nazi paramilitaries and other zealots to take
actions that compounded discrimination against Jews and
their businesses.
Well before the infamous Nuremberg Laws of
September 1935, German Jews were systematically
stripped of legal and economic rights normally associated
with citizenship. Even before they were rendered
officially stateless, Jews faced growing statelessness
via a creeping curtailment of legal and property rights.
The process started on April 1, 1933, when an economic
boycott targeting Jewish-owned businesses and the offices
of Jewish professionals was staged. Then followed a law
purging all Jews from the civil service, including courts
of law and public hospitals (except those individuals who
held their positions before World War I and had served
in the army during that conflict, or had a father or son

14
who died while doing so). The effect was to erode the
existing legal equality of Jews in Germany and to herald
“the step-by-step revision of their emancipation.” Peter
Longerich, Holocaust: The Nazi Persecution and Murder
of the Jews 38 (2010).
In quick succession, the Nazi State then moved to
denaturalize Jews who had become citizens since 1914;
to exclude Jews from cultural institutions, including
theaters, orchestras, and publishing houses; and to
restrict the share of Jews in German secondary schools
and universities—set at 1.5% of total enrollments. In
February 1934, Defense Minister Werner von Blomberg
applied the civil service exclusions to the German military,
and on May 21, 1935, he completed Jewish exclusion from
the military by abolishing the exceptions listed above. See
Peter Hayes, Why? Explaining the Holocaust 76 (2017);
Saul Friedländer, Nazi Germany and the Jews: Volume
I: The Years of Persecution, 1933-1939 117 (1997).
The exclusion of Jews from government posts
ran parallel to the removal of Jews from fiduciary or
management positions w ithin German companies.
Beginning in early 1933, Jewish members of supervisory
and management boards of major corporations were forced
out of their jobs on a massive scale. Between January 1933
and mid-1934, among the 20 largest firms in each of 15
economic sectors in Germany, 57% of the Jewish managing
board (Vorstand) members were forced to retire or resign,
along with 50% of the supervisory board (Aufsichtsrat)
members; by mid-1935, even more had been excluded. See
Martin Münzel, Die jüdischen Mitglieder der deutschen
Wirtschaftselite 1927-1955: Verdrängung—Emigration—
Rückkehr 179-83 (2006).

15
In the spring of 1933, Karstadt, a leading German
department store, provided a striking illustration of
the vulnerability of German Jews to the rapid onset of
Nazi persecution. Between March 28 and April 1, even
before the above-mentioned boycott, Karstadt dismissed
the four Jews on its seven-member managing board, six
Jews from its supervisory board, and about 45 branch
managers and chief buyers. In the ensuing weeks, the
Nazi Party drove 1,200 Jewish employees out of the
company’s operations all across Germany. See Rudolf
Lenz, Karstadt: Ein deutscher Warenhauskonzern
1920-1950 143, 154-55, 176-83 (1955). These and similar
dismissals were possible because of a series of German
Labor Court (Arbeitsgericht) decisions in late April and
early May 1933. Those decisions held that firms could
abrogate labor contracts with Jewish employees whenever
an employer had reason to believe that production or sales
would be endangered by inaction—in other words, reason
to fear that Nazis would disrupt or vandalize a place of
business if Jewish employees continued to be employed.
See Jüdische Rundschau, nr. 49 (June 20, 1933) (reporting
the decisions of April 27 and May 2, 1933). These decisions
exposed Jewish employees to loss of livelihood simply on
“racial” grounds.
Numerous other restrictions were imposed prior to
mid-1935 in order to undermine Jewish-owned businesses
in Germany. For example, Jewish business names were
deleted from state published handbooks and listings, and
the post office started refusing to accept ads for Jewishowned firms in telephone books. Christoph Kreutzmüller,
Final Sale in Berlin: The Destr uction of Jewish
Commercial Activity 1930-1945 152 (2015). Jews also could
no longer rent space in government-owned buildings and
existing rental agreements were cancelled. Id. Other

16
restrictions followed, with Jews excluded from the Berlin
stock exchanges, forbidden to use the word “German” in
the names of their firms, and banned from receiving new
licenses to establish and operate pharmacies. Id. at 153,
156-57, 160, 162.
Between early-1933 and mid-1935, the Nazi regime
(including a broad array of state and local authorities and
professional associations) steadily and comprehensively
infringed upon German Jews’ livelihoods and a dizzying
array of everyday activities. The actions listed below
illustrate the breadth of the restrictions that took effect
before the sale of the Welfenschatz, i.e., during the time
when the respondent’s predecessors were allegedly “free”
to bargain and negotiate a fair price—or to not sell at all:
• Bans relating to Employment or Professional
Membership: Jews (or “non-Aryans”) were banned
from employment at the German National Railway;
Jews could not serve in the military; Jews could
not participate in professions tied to membership
in professional associations including any teachers’
association, the German Pharmacists’ Association
(and ultimately, the Reich Interior Ministry forbade
Jews from taking the pharmacists’ qualifying
exam); Jews were excluded from German sports
associations, the German Automobile Association,
the German Chess League, and the German
Singers’ League; Jewish doctors and dentists could
not seek payments from the national insurance
system; Jews could not take the licensing exam
to be veterinarians unless they had participated
in the national labor service—from which Jews
were excluded; and Jews were banned outright

17
from a growing list of professions including
filmmaking, acting, teaching dance, serving on
fire brigades, editing a newspaper or magazine,
selling newspapers or magazines in certain
cities (including Frankfurt), or being a midwife,
masseuse, or worker in a welfare organization.
• Bans relating to Education: Jews in many parts
of Germany were barred from studying medicine
or dentistry and from being teachers, instructors
or private tutors; Jews could not receive doctoral
degrees unless they renounced their German
citizenship; Jews were banned from the Technical
Institutes at Leipzig and Dresden; Jewish religious
schools in Prussia lost all state funding; in Bavaria,
Jewish youth groups could no longer get reduced
travel fares for group events; and no Jewish
religious schools could be established that did not
prepare students for emigration.
• Bans relating to Law: Jews were prohibited from
taking bar exams; Jews could not act as expert
witnesses in Prussia; Jews could not belong to
law partnerships with non-Jews, serve as jurors;
appear before the Reich Ministry of Finance in
tariff or tax matters, and be participants in cases
before Arbitration or Labor Courts; Jewish schools,
religious and charitable organizations lost their tax
abatements or exemptions (which were available to
Christian organizations).
• Bans relating to Marriage: The Chancellor and
Reich Ministries of Interior and Finance banned
any civil servant married to a Jew from any form
of public or civil service; any married couple that

18
included a Jew became ineligible for government
marriage loans; no recipients of government
marriage loans could use them to buy from Jewish
sellers; and the Reich Defense Ministry required
all brides of soldiers to prove Aryan descent.
• Random acts aimed at disrupting Jewish life:
In April 1933, the Police President in Breslau
stripped all Jews of their gun licenses; in May
1933, the Gestapo in Munich ordered the closing of
all Jewish associations in the city and the seizure
of their property; in July 1933, the Commander
of the Political Police in the Bavarian Ministry
of the Interior ordered a search of all business
offices and residences of Jewish organizations
for evidence of “activities against the state”; in
August 1934, the Bavarian Ministry of the Interior
forbade the speaking Hebrew or Yiddish at cattle
markets; in February 1935, the Secret State Police
Office (Gestapa—a predecessor of the Gestapo
that concentrated on public information) declared
that “all Jewish gatherings in which propaganda
is made for Jews to remain in Germany are to
be banned immediately” and also forbade Jews
to raise the swastika flag or the black-white-red
banner of the former German Empire at homes or
businesses (as other German families were doing
to show loyalty); in February 1935, the Gestapa
office in Karlsruhe banned all Jewish gatherings
that advocated for Jews remaining in Germany,
but exempted Zionist meetings “because the
Zionists encourage emigration”; and in May 1935,
the Gestapa decreed that “every public activity of
assimilationist organizations that advocate Jews
remaining in Germany is to be banned.”

19
See Joseph Walk, Das Sonderrecht für die Juden im NS
Staat 13-22, 25-26, 39-49, 54-68, 73-94, 98-100, 105-07,
117 (2013).
D.

Jewish businesses and assets were targeted for
forced sale at less than full value.

Property theft and appropriation were not tangential
or opportunistic in the Nazi program. Rather, as proven
at Nuremberg and overwhelmingly confirmed by the
historical record, they were central to the purpose of
making it impossible for German Jews to continue living
in Germany.
From the outset of the Nazi regime, Jewish businesses
and assets were subjected to pressure to sell to “Aryans”
at under market value. See Richard Z. Chesnoff, Pack
of Thieves: How Hitler and Europe Plundered the
Jews and Committed the Greatest Theft in History 8-9
(2001); Jonathan Petropoulos, The Faustian Bargain:
The Ar t World in Nazy Ger many 27 (2000). The
harrassers’ methods ran the gamut from gangster-like
personal threats or property damage by Party zealots,
to investigations for supposed tax evasion or violation of
foreign currency controls, exclusions from government
contracts, bans on patronage by civil servants or recipients
of public assistance, and even asset freezes issued by
Nazis in official positions. See Hayes, Why? Explaining
the Holocaust at 77-78.
Another common way to drive Jewish business owners
to sell their property—i.e., engage in forced sales—was
to exclude them from markets that the government could
control. Two examples of such takeovers involved buyers

20
in Frankfurt, both showing how political pressure from
the Nazi State could exert coercive pressure on Jews.
Both sales took place at nominally “negotiated” and
“reasonable” prices that postwar restitution proceedings
judged exploitative.
In 1933, Chemisch-Pharmazeutische Werke AG, a
manufacturer of medicinal preparations, was led by a
Jew named Arthur Abelmann, who also owned the firm
that controlled a majority of the stock in the corporation.
After two Nazified doctors’ associations insisted that
public hospitals cease to buy from the firm, its revenues
plunged that March. The Jewish owner went in search
of a non-Jewish partner to buy a majority of his shares.
Within a few months, he concluded that Nazi antisemitism
was so strong that he would have to sell out entirely and
leave the country, which he did in August. He got the full
book value for his firm, but the sale was neither voluntary
nor fair. Accordingly, the postwar restitution proceedings
imposed a substantial compensatory payment on the
buyers, Degussa and IG Farben. Peter Hayes, From
Cooperation to Complicity: Degussa in the Third Reich
77-79, 106-07 (2004).
The second case concerned Degea AG, a leading maker
of electric bulbs and a company owned by Alfred Koppel,
who was of Jewish descent, that did a large portion of its
business with the German Defense Ministry. Faced, like
Abelmann, with a loss of orders, Koppel at first sought a
non-Jewish partner to take a majority stake but leave him
with a minority interest and managerial responsibility.
Like Abelmann, he soon discovered that political pressure
made this objective untenable and he decided to sell in
full, which he did at his stock’s market value at the time.

21
That sum, however, was well below the asset value of the
enterprise, and after the war the buyer (Degussa) had
to pay another substantial restitution settlement. Once
again, a sale that appeared to have occurred at the seller’s
request and a nominally appropriate price was shown to
have been coercive and unduly favorable to the buyer as
a result of market conditions created by Nazi actions. Id.
at 79-83, 107.
According to two contemporary estimates, “a total
of some 20 to 25 percent of all Jewish businesses [in
Germany] had either been liquidated or transferred to
‘Aryan’ hands by the middle of 1935”—that is, by the time
of the Welfenschatz sale. Avraham Barkai, From Boycott
to Annihilation: The Economic Struggle of German
Jews 1933-1943 70 (1989). While such transfers occurred
“in pursuance of ‘voluntary’ agreements between Jewish
sellers and German buyers . . . [t]he word ‘voluntary’
belongs in quotation marks because no sale of Jewish
property under the Nazi regime was voluntary in the sense
of a freely negotiated contract in a free society.” See Raul
Hilberg, The Destruction of the European Jews 92 (2003).
E. Market manipulation and forced sales were
common in the German art market between
1933 and 1935.
Well before the Welfenschatz sale in mid-1935, every
Jewish art or antiquities dealer knew that s/he could
be excluded from the trade at a moment’s notice by the
Reich Chamber of Figurative Arts (Reichskammer der
bildenden Künste) on grounds of “unsuitability.” See
Christine Fischer-Defoy & Kaspar Nürnberg, Gute
Geschäfte: Kunsthandel in Berlin 1933-1945 12 (2011).

22
The legal framework that legitimated expropriation
of art from Jews came into being in 1933. As early as
July 10, the Minister President in Hanover wrote to the
Prussian Minister for Economics and Labor advocating
the imposition of new qualifications for auctioneers in
order to “remove the unclean elements,” referring to
Jews. Id. at 131. On July 14, the Law for the Revocation
of Naturalization and the Non-Recognition of German
Citizenship, and the Law Concerning the Seizure of
Property Opposed to the People and the State legalized
the confiscation of art collections. After August 7, the
Law to Eliminate Abuses in Auctioneering, supposedly
designed to protect against false attributions and
excessive pricing, became an excuse to investigate and
interfere with the business of Jewish auctioneers. Id. at
120. Propaganda Minister Joseph Goebbels then declared
on February 7, 1934 that Jews were categorically unfit to
administer Germany’s cultural property, and thereafter
the number of “non-Aryans” excluded from the Reich
Chamber of Figurative Arts steadily rose. Id. at 124-25.
On August 4, 1934, the First Order to Protect the
Profession and the Activity of Art and Antiquity Dealers
excluded all Jews from the business except those granted
exemptions (usually people who produced sales in foreign
currency, which Germany needed), thus creating the
possibility of a firm being terminated by order at any time.
Id. at 120. The Law on the Auction Trade of 16 October
1934 then made participation in the art trade contingent on
membership in the Reich Chamber of Culture, which could
be withdrawn at any time. Id. at 12. In the aftermath of
that law (and subsequent orders issued through February
1935), pressure on Jewish art sellers mounted while the
ability of Jews to serve as auctioneers or owners of auction

23
houses steadily dwindled—precisely as the sale of the
Welfenschatz was moving toward conclusion. See id. at
120, 131.
Every dealer knew of important confiscations and
forced sales. See Inka Berz & Michael Dorrmann, Raub
und Restitution: Kulturgut aus jüdischem Besitz von
1933 bis Heute 71, 76-77 (2008). “After January 30, 1933
the emigration wave of the Jewish population began.
The most renowned Jewish galleries also gave up or
were forced to do so.” Fischer-Defoy & Nürnberg, Gute
Geschäfte at 18. For example, Alfred Flechtheim, a
famous Jewish dealer in modern art, had his gallery in
Dusseldorf “aryanized” on March 30, 1933 by his former
colleague Axel Vömel, and fled to Basel, then Paris, and
finally at the beginning of 1934 to London. His Berlin
gallery was taken over by Alfred E. Schulte as general
manager in November 1933. It was liquidated in January
1936. Id. at 39. After Nazi Party stormtroopers blocked
their entrance on April 1, 1933, Israel Ber Neumann sold
his half of the Neumann-Nierendorf Gallery in Berlin to
his non-Jewish partner, Karl Nierendorf, and fled to New
York, to which Nierendorf also fled in 1936. Id. at 83-85.
Fritz Goldschmidt and Victor Wallerstein founded their
Goldschmidt-Wallerstein Gallery in Berlin on December
1, 1919, primarily specializing in older Dutch, German,
and Italian art. They were driven out of business in the
summer of 1934, and the firm name disappeared two years
later. Id. Franz Zatzenstein, the business manager of the
Galerie Matthiesen in Berlin, fled Germany in 1933, going
first to Zurich, then to London. Id. at 76.
Well-known attacks on Jews in the art business during
1935, as the Welfenschatz sale conluded, included:

24
• February 1935: Seizure by the Gestapo of 64 works
out of 200 that were to be auctioned by Max Perl in
Berlin, including 18 owned by the recently deceased
Jewish collector Ismar Littmann.
• January and April 1935: As a result of the exclusions
noted above, Paul Graupe, Berlin auctioned off the
collections of the Galerie van Diemen & Co., the
Altkunst Antiquitäten GmbH, the Dr. Benedict &
Co., and the Dr. Otto Burchard & Co.—all Jewishowned firms. Fischer-Defoy & Nürnberg, Gute
Geschäfte at 51.
• August 1935: The exclusion of Galerie Stern of
Duesseldorf from further trading expanded upon an
earlier ban, in late 1933, on auctions at its gallery.
See Berz & Dorrmann, Raub und Restitution at 71, 7677, 99.
Further reducing the sellers’ negotiating leverage
regarding the Welfenschatz was their knowledge that they
were effectively dealing directly with the Nazi State—i.e.,
the same state that was destroying the social and economic
livelihood of German Jewry. The Dresdner Bank led the
acquisition of the Welfenschatz. The State had bailed-out
the bank in 1931, and between 1932 and 1937, Dresdner
was effectively a government-owned enterprise. After
January 1933, Nazi authorities immediately began
applying the civil service exclusion law to the bank. More
than half of the bank’s 540 Jewish employees were fired
or forced into early retirement in 1933—and more than
one-third of the remaining, supposedly exempt, Jewish
employees were forced out over the next eighteen months.

25
In all, by about the time of the Welfenschatz sale, 400 of
540, or 74%, of the bank’s Jewish workforce had been
removed. See Dieter Ziegler, Die Dresdner Bank und
die deutschen Juden 48, 53 (2006). At the beginning of
1935, 90% of Dresdner’s stock remained in the hands of
the Reich or a bank controlled by the Reich. Johannes
Bähr, Die Dresdner Bank in der Wirtschaft des Dritten
Reichs 66-74 (2006).
Thus, during the period from January 1933 to June
1935, the Nazi regime was taking concerted steps to
destroy the social and economic rights and freedoms of
German Jews and to make their continued presence in
Germany increasingly unbearable. This is true if viewed
generally, in terms of any Jewish person’s ability to
exercise social and economic rights, and it also is true
if viewed specifically, in terms of a Jewish art dealer’s
ability to operate freely in an open and fair market free
of coercive pressures. This period is inextricably related
to the genocide we call the Holocaust. To depict prevailing
conditions at the time of the Welfenschatz sale as allowing
Jewish sellers to stand on equal negotiating footing with
non-Jewish buyers is an affront to the historical record.
II. HISTORICAL EVIDENCE CONNECTS ARTICLE
2(C) OF THE U.N. GENOCIDE CONVENTION
TO GERMANY’S PROGRAM OF ECONOMIC
DESTRUCTION OF GERMAN JEWS
Article 2 of the Genocide Convention defines genocide
to include a collection of acts “committed with intent to
destroy, in whole or in part, a national, ethnical, racial or
religious group, as such.” Article 2(c) then defines genocide
to include “[d]eliberately inflicting on the group conditions

26
of life calculated to bring about its physical destruction
in whole or in part.” Convention on the Prevention and
Punishment of the Crime of Genocide, Dec. 9, 1948, 102
Stat. 3045. Amici are not opining on the international
law of genocide or the scope of Article 2 of the Genocide
Convention. Amici do, however, acknowledge that various
drafters of the Genocide Convention, taking account of
the findings at Nuremberg, viewed Germany’s program of
economic destruction as to German Jews as falling within
the definition of genocide expressed in Article 2(c) of the
Genocide Convention.
The Nuremberg Tribunal did not apply the crime of
genocide to the Major War Criminals. Rather, the Major
War Criminals were convicted of war crimes that included
crimes against humanity committed after September 1,
1939, when Germany invaded Poland. See Indictments,
United States v. Brandt, et al. (Int’l Military Trib. at
Nuremberg 1946) (indicting defendants only for acts
that occurred after September 1939). The Tribunal did,
however, find that the Nazi program to destroy the Jews
began in January 1933 (and covered the period at issue
here), but limited its use of that finding to providing a
predicate for its war crimes ruling. See Goering, 6 F.R.D.
at 161-62. The drafting history of the Genocide Convention
suggests that in defining genocide, various U.N. delegates
took note of the Nuremberg findings and understood
that destroying a targeted group’s social and economic
existence would fall within the definition of genocide under
the Convention.
During World War II, Raphael Lemkin, who coined
the term “genocide,” wrote that the crime could include the
“disintegration of . . . the economic existence of national
groups.” Raphael Lemkin, Axis Rule in Occupied Europe

27
79 (1943). Lemkin also provided economic examples of
genocide that included the Nazis’ “immediately depriv[ing]”
Jews of economic existence through “expropriation and
by forbidding them the right to work.” Raphael Lemkin,
Genocide – A Modern Crime 39-43 (1945). Following the
war and the Nuremberg rulings, a resolution seeking a
convention to criminalize genocide was offered by U.N.
delegates who cited the Nuremberg Tribunal’s failure to
expressly punish acts committed prior to the war, which
some delegates called a “peacetime genocide.” William
Schabas, From the Holocaust to the Genocide Convention
2, 15-16 (2008).
Lemkin was one of three principal authors of
the draft Genocide Convention prepared by the U.N.
Secretariat. That draft collected detailed examples of
what could qualify as genocide, including “deprivation
of all means of livelihood, by confiscation of property,
looting, curtailment of work, denial of housing and of
supplies otherwise available to the other inhabitants of
the territory concerned.” Draft Convention on the Crime
of Genocide, Art I(II), E/447 (1947). This draft went to
the Sixth Committee of the General Assembly, which
proceeded to negotiate what would become the final text of
the Genocide Convention. See generally Rep. of the Sixth
Committee, Genocide: Draft Convention and Report of the
Economic and Social Council, A/760 (1948).
Ultimately, Article 2(c) was added as part of an effort
to clarify that any list of what constitutes genocide was not
intended to be exhaustive. U.N. ESCOR, 8th Sess., 69th
mtg. at 57 (Oct. 7, 1948) (Venezuelan delegate noting that
“in his opinion the definition was not an exhaustive one”);
see also U.N. ESCOR, 8th Sess., 72nd mtg. at 83 (Oct. 12,
1948)(Polish delegation stating that it was “impossible to

28
enumerate every act which might constitute the crime of
genocide,” and that any enumeration “should be regarded
as a statement of typical cases cited as examples”); id. at
82 (Yugoslav delegate stating that “genocide was always
preceded by a number of preliminary acts. It was essential
to combat genocide in all its forms, not merely at the last
stage, which was the stage at which ‘an attack on . . . life’
occurred”).
The Soviet Union, which drafted the amendment that
added subclause 2(c) to the definition, said that the specific
acts enumerated in Article 2 were based on historical
considerations relating to the acts most frequently
committed by the Nazis. With respect to what became
Article 2(c), the Soviets explained that the language was
drafted to include all acts capable of creating conditions of
life aimed at the total or partial extermination of a group.
U.N. ESCOR, 8th Sess., 81st mtg. at 173 (Oct. 22, 1948);
see also id. at 180 (Soviet delegate stressing “the point
that the intent to impose certain living conditions was an
essential factor of the crime” and that “[t]he text suggested
did not contain any enumeration as it was impossible to
provide for all measures which might be taken in order
to create the living conditions contemplated”). The Soviet
amendment was adopted, adding Article 2(c) to the
Genocide Convention. U.N. ESCOR, 8th Sess., 82nd mtg.
at 183 (Oct. 23, 1948). As originally worded, Article 2(c)
read: “The deliberate infliction of conditions of life for
such groups as are calculated to bring about their physical
destruction in whole or in part.” 3
3. Amici also acknowledge that the Genocide Convention
makes the crime very hard to prove, including because Article
2 requires a showing of specific intent to create the conditions

29
CONCLUSION
The history of the Holocaust establishes that, during
1933-35, the Nazi regime promoted the exclusion,
immiseration, and emigration of German Jews, including
by creating market conditions that coerced Jews to sell
property at less than its fair value. This early period
was consistent with and part of what became the larger
Holocaust directed at Jews across Europe and was so
considered by the drafters of Article 2(c) of the Genocide
Convention in defining the crime of genocide.
Respectfully submitted,
Owen Pell
Counsel of Record
Sequoia K aul
Paula K ates
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
(212) 819-8200
opell@whitecase.com
Counsel for Amici Curiae
September 11, 2020

falling within Article 2(c). As established at Nuremberg, the
Nazi program that began on January 30, 1933, was aimed at
creating conditions that, sooner or later, would destroy the
German Jewish community.

